               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Suspension and Debarment Program

                       Audit Report




                                              May 30, 2012

Report Number CA-AR-12-002
                                                                              May 30, 2012

                                                  Suspension and Debarment Program

                                                            Report Number CA-AR-12-002




IMPACT ON:
U.S. Postal Service suspension and              purchasing community at risk of doing
debarment practices. These practices            business with ineligible suppliers. We
help ensure that the Postal Service and         also identified best practices that, if
the federal purchasing community are            implemented, could strengthen the
protected from suspended, debarred, or          program. We are providing those best
ineligible suppliers.                           practices to the Postal Service for their
                                                consideration.
WHY THE OIG DID THE AUDIT:
Our objective was to assess the                 WHAT THE OIG RECOMMENDED:
Postal Service’s suspension and                 We recommended management
debarment program. Specifically, we             consistently update and accurately
evaluated the Postal Service’s                  record suspension and debarment
compliance with pertinent regulations           activity on the required lists upon
and benchmarked its suspension and              debarment and instruct contracting staff
debarment practices against Federal             on suspension and debarment policies
Acquisition Regulation (FAR) and                and practices at least annually.
FAR–exempt agencies to identify best
practices and key program similarities          WHAT MANAGEMENT SAID:
and differences.                                Management agreed with the findings
                                                and recommendations in the report and
WHAT THE OIG FOUND:                             completed actions to implement the
Although no suspended or debarred               recommendations, including
suppliers are currently under contract          implementing oversight controls and
with the Postal Service, opportunities          communicating suspension and
exist for improving the suspension and          debarment policy information to Supply
debarment program. Postal Service               Management personnel.
suspension and debarment officials did
not consistently update or accurately           AUDITORS’ COMMENTS:
record suspension and debarment                 The U.S. Postal Service Office of
activity in the General Service                 Inspector General considers
Administration’s Excluded Parties List          management’s comments responsive to
System and the Postal Service list of           the recommendations and corrective
suppliers debarred, suspended, and              actions should resolve the issues
ineligible at the time of suspension or         identified in the report.
debarment, as required. If the Postal
Service does not keep these required            Link to review the entire report
lists current, it puts itself and the federal
May 30, 2012

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Suspension and Debarment Program
                           (Report Number CA-AR-12-002)

This report presents the results of our audit of the U.S. Postal Service’s Suspension and
Debarment Program (Project Number 11YG046CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Trent K. Ensley
    Robert D. D’Orso
    Susan A. Witt
    Karren D. Vance
    Corporate Audit and Response Management
Suspension and Debarment Program                                                                                   CA-AR-12-002




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

General Service Administration’s Excluded Parties List System and Postal Service List
     not Updated .......................................................................................................... 2

Best Practices: Characteristics of an Active Suspension and Debarment Program ........ 3

   Fact-Based Suspensions and Debarments ................................................................. 3

   Contracting Officer Involvement .................................................................................. 4

   Participation on the Interagency Suspension and Debarment Committee ................... 4

   Other Best Practices .................................................................................................... 5

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Management’s Comments ........................................................................ 11
Suspension and Debarment Program                                                                    CA-AR-12-002




Introduction

This report presents the results of our audit of the U.S. Postal Service’s Suspension and
Debarment1 Program (Project Number 11YG046CA000). Our objective was to assess
the Postal Service’s suspension and debarment program. Specifically, we evaluated the
Postal Service’s compliance with pertinent regulations and benchmarked its suspension
and debarment practices against Federal Acquisition Regulation (FAR) and
FAR-exempt agencies to identify best practices and key program similarities and
differences. This self-initiated audit addresses operational risk. See Appendix A for
additional information about this audit.

Suspensions and debarments are administrative remedies that federal agencies can
take to protect against future losses from supplier fraud, waste, abuse, poor
performance, and noncompliance with contract provisions or applicable laws. The
contracting officer (CO), the U.S Postal Service Office of Inspector General (OIG),
Inspection Service, General Counsel, or a representative from any area of the Postal
Service may initiate a request for suspension and debarment to the vice president,
Supply Management (VP, SM) through the appropriate channels. 2 If the VP, SM
determines that suspension and debarment is warranted, the suspension and
debarment coordinator will notify the General Services Administration (GSA) via its
Excluded Parties List System (EPLS), the Inspection Service, and the OIG; and will post
the suspension and debarment on the Postal Service’s internal listing of suppliers
debarred, suspended, and ineligible.3 COs are required to review the Postal Service
and GSA lists before making a contract award and may not solicit proposals from,
award contracts to, or consent to subcontracts with debarred, suspended, or ineligible
suppliers.4 The Postal Service plans to eliminate the Postal Service list and only use the
GSA list as the official suspension and debarment reference for Postal Service
purposes. This will eliminate any potential confusion on the part of the Postal Service
COs.

Conclusion

Although no suspended or debarred suppliers were currently under contract with the
Postal Service, opportunities exist for the Postal Service to improve its suspension and
debarment program. Postal Service suspension and debarment officials (SDOs) did not
consistently update or accurately record suspension and debarment activity on the GSA



1
  Code of Federal Regulations (CFR), Title 39, §601-113(b)(6) and (b)(2), Debarment, Suspension, and Ineligibility
defines suspension as an exclusion from contracting and subcontracting for a reasonable period of time due to
specified reasons or the pendency of a debarment proceeding. It defines debarment as an exclusion from contracting
and subcontracting for a reasonable, specified period commensurate with the seriousness of the offense, failure, or
inadequacy of performance.
2
  Postal Service’s Supply Management General Practice 7.11.1, Initiating a Request for Debarment or Suspension.
3
  Postal Service’s Supply Management General Practice 7.11.2, Suspension and Debarment Coordinator.
4
  CFR, Title 39, §601-113 (d) (1) and (2), Treatment of Suppliers on Postal Service or GSA Lists.
                                                          1
Suspension and Debarment Program                                                                       CA-AR-12-002



EPLS5 and the Postal Service’s list of suppliers debarred, suspended and ineligible
(Postal Service List). In addition, SDOs did not consistently list the “Doing Business As”
(DBA)6 aliases of debarred suppliers on the GSA’s EPLS or the Postal Service List. If
management does not consistently update the required lists, the Postal Service puts
itself and the federal purchasing community at risk of doing business with suspended or
debarred suppliers. We identified best practices that, if implemented, could help
strengthen the program.

General Service Administration’s Excluded Parties List System and
Postal Service List not Updated

SDOs did not consistently update or accurately record suspension and debarment
activity on the GSA’s EPLS and the Postal Service List at the time of suspension or
debarment. From fiscal years (FYs) 2009 through 2011, the OIG’s Office of General
Counsel (OGC) referred 155 actions for debarment. We reviewed 143 of the actions
and identified 31 occurrences where the suspension and debarment coordinator did not
update or accurately record suspension and debarment information. In addition, we
found one occurrence where the suspension and debarment coordinator did not list the
DBA aliases of debarred suppliers on the GSA’s EPLS and the Postal Service List
(see Table 1).

                Table 1: Review of the GSA’s EPLS and Postal Service List
                                                                                                 Number of
                Conditions Associated with Debarment Actions
                                                                                                Occurrences
    Debarred suppliers not listed on the Postal Service List.7                                      26
    Debarred suppliers on the GSA’s EPLS removed from the Postal
                                                                                                        4
    Service List prior to the official termination date.8
    Official termination date on the Postal Service List is inconsistent with
                                                                                                        1
    the official termination date on the GSA’s EPLS list.
    DBA aliases of debarred suppliers not listed on the GSA’s EPLS and
                                                                                                        1
    Postal Service List.

According to the Supplying Principles and Practices (SP&P), if the VP, SM determines a
suspension or debarment is warranted, the suspension and debarment coordinator will
notify GSA (via its EPLS), the Postal Inspection Service, and the OIG and post the
suspension and debarment on the Postal Service’s internal web page.9 The suspension
and debarment coordinator did not consistently update the Postal Service List because
the organizational redesign of 2011 greatly impacted the ability of the individual to do so
in a timely manner. During the organizational changes, staff roles changed, resulting in

5
  The GSA’s EPLS includes information regarding entities debarred, suspended, proposed for debarment, excluded
or disqualified under the non-procurement common rule, or otherwise declared ineligible from receiving federal
contracts, certain subcontracts, and certain federal assistance and benefits.
6
  A business name that is different from a personal name, the names of partners or the officially registered name of
an LLC or corporation. You need a DBA to start a business under any name other than your real one or if your
business is already incorporated and you want to do business under a different name.
7
  As of January 2012, the Postal Service had not updated its list since July 2011.
8
  The termination date is the date that a suspension or debarment will expire.
9
  SP&P, General Practices, Section 7-11.2, Suspension and Debarment Coordinator.


                                                          2
Suspension and Debarment Program                                                                         CA-AR-12-002



a lack of staff dedicated to the Suspension and Debarment Office to ensure that tasks
such as updating EPLS and the Postal Service list were completed. Management is
working to correct this issue. If management does not consistently update the required
lists, including the DBA aliases of debarred entities, the Postal Service puts itself and
the federal purchasing community at risk of doing business with suspended or debarred
suppliers.

Best Practices: Characteristics of an Active Suspension and Debarment Program

Although there can be overriding and compelling justifications, an agency’s
reluctance or refusal to suspend or debar a supplier often jeopardizes not only
the integrity of that agency’s programs, but also the integrity of contract awards
across the federal government. By contrast, a federal agency’s vigorous and
appropriate use of suspensions and debarments can help prevent future
losses.10

Opportunities exist for the Postal Service to enhance its suspension and debarment
program. We benchmarked the Postal Service’s suspension and debarment program
against other FAR11 and FAR-exempt12 agencies and identified best practices related to
fact-based suspension and debarment actions, CO involvement, participation on the
Interagency Suspension and Debarment Committee (ISDC)13, detailed policies and
procedures, active referral processes, and dedicated staff (see Table 2). We are
reporting these best practices to the Postal Service so it may consider them for
implementation.

Fact-Based Suspensions and Debarments

Government-wide, most suspensions and debarments rely on indictments, criminal
convictions, or civil judgments to establish the basis for action. Actions based entirely on
the strength of the facts14 are less frequent. Of the agencies we benchmarked, all
had initiated suspensions and debarments based upon factual grounds (see Table 2).
Fifty-five of the 143 Postal Service suspension and debarment actions we reviewed
(38 percent) were fact-based referrals the OIG made and 40 of the 55 fact-based

10
   The Council of the Inspectors General on Integrity and Efficiency (CIGIE) report titled Don’t Let the Toolbox Rust:
Observations on Suspension and Debarment, Debunking Myths, and Suggested Practices for Offices of Inspector
General, dated September 20, 2011.
11
   We benchmarked the Department of Justice (DOJ), Department of Interior (DOI), Defense Logistics Agency (DLA),
and GSA.
12
   We benchmarked the Tennessee Valley Authority and Federal Deposit Insurance Corporation (FDIC).
13
   The ISDC was established to monitor and implement Executive Order 12549, which mandates executive
departments and agencies to (1) participate in a government-wide system for debarment and suspension from
programs and activities involving federal financial and non-financial assistance and benefits, (2) issue regulations with
government-wide criteria and minimum due process procedures when debarring or suspending participants, and (3)
enter debarred and suspended participants' identifying information on the GSA’s EPLS. The ISDC also serves as a
forum to discuss current suspension- and debarment-related issues and assists in developing unified federal policy.
14
   Fact-based actions do not rely on judicial proceedings such as indictments, convictions, or civil judgments. Instead,
these actions can be supported by a preponderance of the evidence leading to the conclusion that a fact in issue is
more probable than not. For example, willful failure to perform in accordance with contract terms, history of
unsatisfactory performance, or any other cause that is so serious as to affect present responsibility.


                                                           3
Suspension and Debarment Program                                                                       CA-AR-12-002



referrals (73 percent) resulted in debarment. However, the Postal Service may not take
action on some fact-based cases because of the time and resources required, the level
of evidence needed to sustain an action, and the potential impact of holding
simultaneous proceedings on criminal, administrative and civil matters.15

Best practices observed by the CIGIE16 remind agencies that suspension and
debarment actions may not always arise from court proceedings. In reality, the FAR, the
Non-Procurement Common Rule,17 and Postal Service regulations contemplate
fact-based actions by providing that debarment can be supported by a preponderance
of the evidence. Likewise, an indictment alone can establish cause for suspension and
such action may be appropriate based on adequate evidence, which is a lower standard
akin to probable cause.

Contracting Officer Involvement

The DLA notes that CO involvement is key to the suspension and debarment process.
The DOI also actively involves the CO in the referral process. At the DOI, the CO makes
referrals to their OIG Acquisition Integrity Unit, which then prepares the referral for
further consideration to management.

The DLA COs also receive semiannual training on how and when to make referrals and
on contractor fraud indicators. Postal Service COs review general practices related to
suspension and debarment during their initial CO training, but are not required to
recertify after they receive their SP&P certification. Instead, they must complete
24 hours of training annually, but the content of the training is at their discretion.

We reviewed 143 Postal Service suspension and debarment actions for FYs 2009
through 2011, and none were referred by COs. Rather, they were all referred by the
OIG’s OGC. The suspension and debarment coordinator stated that COs have initiated
suspension and debarment cases in the past, but this is not the norm. The CO may
initiate a request by submitting it to the VP, SM, in addition to referring fraudulent
activity to the OIG or Inspection Service. The COs could benefit from receiving
additional training in order to identify and recommend more cases suitable for
suspension and debarment consideration.

Participation on the Interagency Suspension and Debarment Committee

All but one of the agencies we benchmarked attend monthly ISDC meetings or
participate on the various ISDC sub-committees. The Postal Service does not currently
15
   Sensitive investigative information or case theories being disclosed to the subject through the suspension and
debarment process, thereby compromising judicial proceedings.
16
   The CIGIE report titled Don’t Let the Toolbox Rust: Observations on Suspension and Debarment, Debunking
Myths, and Suggested Practices for Offices of Inspector General, dated September 20, 2011.
17
   Procedures used by federal executive agencies to suspend, debar, or exclude individuals or entities from
participation in nonprocurement transactions under Executive Order 12549. Examples of nonprocurement
transactions are grants, cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan
guarantees, subsidies, insurance, payments for specified use, and donation agreements.




                                                          4
Suspension and Debarment Program                                                           CA-AR-12-002



participate on the ISDC; however, a representative from the OIG’s OGC is a standing
committee member. It could benefit the Postal Service to have a representative attend
ISDC meetings to gain insight on enhancing its suspension and debarment program
and to participate in forums and activities with other agencies to share ideas.

Other Best Practices

The U.S. Government Accountability Office (GAO) issued a report18 in August 2011
outlining characteristics of active suspension and debarment programs. Of the agencies
GAO reviewed, the four with the most suspensions and debarments based on
acquisition regulations share certain characteristics that were not present at agencies
with relatively few or no such cases. The DLA, Department of the Navy, GSA, and the
Department of Homeland Security’s U.S. Immigration and Customs Enforcement
agency share the following characteristics of an active suspension and debarment
program:

    Detailed policies and procedures.
    Practices that encourage an active referral process.
    A full-time staff dedicated to the suspension and debarment program.

The Postal Service’s program embodies one of the three characteristics of an active
suspension and debarment program. Specifically, the Postal Service’s policies and
procedures include Title 39 CFR, §601.113, which provides guidance for supplier
debarment, suspension, and ineligibility. Further, the Postal Service’s Supply
Management General Practices, Supplier Debarment, Suspension, and Ineligibility,
provides step-by-step guidelines on initiating a request for suspension and debarment.
In addition to the Postal Service’s policies, procedures, and guidelines, the OIG
identifies and refers cases based on investigations and legal proceedings.

We observed active referral processes at DLA and DOI, as discussed above in the
section addressing CO involvement. Finally, of the six agencies we benchmarked, three
have full-time staff dedicated to suspension and debarment activities. GSA has a
suspension and debarment division, consisting of a division director and four staff
members within its Office of Government-Wide Policy. Most of the staff members are
attorneys who attend suspension and debarment training at the Federal Law
Enforcement Training Center. Their duties include referral processing, case
development, and coordination with the OIG. DLA’s suspension and debarment
program is part of the agency’s larger contracting integrity issue area. Three attorneys
and one part-time paralegal from the OGC administer suspensions and debarments.
Responsibilities include processing referrals from primary field activity offices, assisting
in coordination with the DOJ, and coordinating lead agency determinations with other
agencies.


18
  Suspension and Debarment: Some Agency Programs Need Greater Attention, and Government-Wide Oversight
Could Be Improved, GAO-11-739.


                                                   5
    Suspension and Debarment Program                                           CA-AR-12-002



    The DOI’s suspension and debarment function is part of its Office of Acquisition and
    Property Management and the senior procurement executive is the suspension and
    debarment official. The senior debarment program manager (SDPM) is an attorney who
    reviews incoming action referrals, acts as case representative, and prepares written
    determinations. In addition, the SDPM conducts debarment awareness training and
    works with the DOI’s OIG personnel who prepare action referrals. A full-time paralegal
    provides administrative support, including making EPLS entries.

    The Postal Service’s suspension and debarment function is a component of the Policy,
    Compliance, Audit Management, and Freedom of Information Act group. The Postal
    Service does not have a full-time dedicated staff for its suspension and debarment
    program. Rather a suspension and debarment coordinator assists with processing
    suspensions and debarments and one contract attorney reviews requests before
    forwarding them to the VP, SM. These individuals are not assigned solely to
    suspensions and debarments, but have duties in other areas as well.

                 Table 2: Suspension and Debarment Best Practices by Agency
       Best Practices             Non-FAR Agencies                 FAR Agencies
                               Postal     FDIC     TVA     DLA      DOJ     DOI         GSA
                               Service
Fact-based suspensions
                                  X         X       X       X         X      X               X
and debarments
CO actively involved in
                                                            X                X
referrals
Semiannual training
specific to suspension,                                     X
debarment, and fraud
Agency ISDC participation                   X               X         X      X               X
Detailed policies and
                                  X         X       X       X         X      X               X
procedures
Practices that encourage
                                            X               X         X      X               X
an active referral process
Full-time staff dedicated to
                                                            X                X               X
the program




                                              6
Suspension and Debarment Program                                              CA-AR-12-002



Recommendations

We recommend the vice president, Supply Management:

1. Direct the suspension and debarment coordinator to timely and accurately record
   suspension and debarment activity, including reporting the “Doing Business As”
   aliases of debarred suppliers, on the General Service Administration’s Excluded
   Parties List System; and the Postal Service’s list of suppliers debarred, suspended,
   and ineligible.

2. Provide all contracting staff with instruction and guidance on suspension and
   debarment policies, practices, and referrals at least annually; and regularly remind
   them of the importance of a strong suspension and debarment program and
   vigilance against contract fraud.

Management’s Comments

Management agreed with the findings and recommendations in the report and
completed actions to implement the recommendations. Regarding recommendation 1,
management stated they have implemented oversight controls, including monitoring
procedures to ensure referrals are processed timely and the GSA and Postal Service
lists are accurate. Management further stated they will perform oversight of this process
on a semiannual basis and indicated they completed an oversight review and corrected
all actions as of May 15, 2012. Management has also proposed a policy change to
discontinue the requirement to maintain the Postal Service list, which should duplicate
the information on the GSA list.

Regarding recommendation 2, management stated they partnered with the OIG’s Major
Fraud Investigations Division to communicate information on contract fraud cases to
increase awareness among SM personnel and that they have further communicated
information on suspension and debarment policies to all contracting staff. Management
indicated that they issued contract fraud alert and policy communications on February 6,
2012 and May 9, 2012, respectively. See Appendix B for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Management asked
that we close both recommendations based on completing the actions stated.

The OIG considers both recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation that
corrective actions are completed. Management has provided us with sufficient
supporting documentation to verify the actions were completed. Therefore, we are
closing both recommendations with the issuance of this report.



                                            7
Suspension and Debarment Program                                             CA-AR-12-002




                          Appendix A: Additional Information

Background

Suspensions and debarments are administrative remedies that federal agencies can
take to protect against future losses from supplier fraud, waste, abuse, poor
performance, and noncompliance with contract provisions or applicable laws. The
Postal Service should continuously measure and analyze supplier performance relative
to contractual requirements and apply suspension and debarment remedies when
applicable. Appropriate use of suspension and debarment could help limit future
Postal Service losses.

The Postal Service’s suspension and debarment policy was in the original Postal
Contracting Manual and placed into effect no later than January 1, 1972. According to
the Postal Service’s SM General Practices, the CO, the OIG, Inspection Service,
General Counsel, or a representative from any area of the Postal Service who is aware
of circumstances that may be the basis for a suspension and debarment may initiate a
request for suspension and debarment. The request is sent to the VP, SM through the
appropriate channels (such as the CO, relevant manager, General Counsel, or the
suspension and debarment coordinator); however, the requestor must first report
circumstances that involve possible criminal or fraudulent activities to the OIG or
Inspection Service, as appropriate, for investigative consideration. CFR Title 39,
§601-113(d) requires COs to review the Postal Service and GSA lists before making a
contract award. COs may not solicit proposals from, award contracts to, or, when a
contract provides for such consent, consent to subcontracts with debarred, suspended,
or ineligible suppliers.

The suspension and debarment coordinator in the SM Infrastructure, with assistance
from the General Counsel, will review the suspension and debarment request in
adherence to the requirements of CFR Title 39, §601-113 before forwarding it to the VP,
SM with a recommended course of action. If the VP, SM determines that suspension
and debarment is not warranted, the suspension and debarment coordinator will notify
the requestor of the determination. If the VP, SM determines that suspension and
debarment is warranted, the suspension and debarment coordinator, with the
assistance of the General Counsel, will prepare a written notice to the party advising of
the proposed suspension and debarment. The supplier will have 30 days to respond to
the proposed suspension and debarment and, if there is no response or the supplier's
response is not sufficient and the VP, SM still determines that suspension and
debarment is warranted, the suspension and debarment coordinator will notify GSA (via
its EPLS), the Inspection Service, and the OIG of the suspension and debarment and
post it on the Postal Service’s internal listing of suppliers debarred, suspended, and
ineligible.

The Postal Service does not initiate debarment actions internally. Rather, the OIG’s
OGC forwards case referrals to the Postal Service’s suspension and debarment



                                            8
Suspension and Debarment Program                                            CA-AR-12-002



coordinator. In FY 2006, the OIG’s OGC began collaborating with the Postal Service to
develop a more streamlined referral process for suspension and debarment actions.
From FYs 2009 through 2011, the OIG’s OGC referred 155 debarment actions to the
Postal Service. Of the 143 actions we reviewed for that period, the Postal Service
debarred 98 (69 percent). The Postal Service bases its decisions to suspend or debar
an individual supplier on several factors, including CFR Title 39, §601-113(b)(6),
Debarment, Suspension, and Ineligibility; the level of competition from suppliers; and
other mitigating factors. Ultimately, management considers suspension and debarment
actions a business decision.

Objective, Scope, and Methodology

Our objective was to assess the Postal Service’s suspension and debarment program.
To accomplish our objective, we:

   Interviewed SDOs to obtain an understanding of the program.

   Reviewed criteria related to suspension and debarment and evaluated the
    Postal Service’s compliance with pertinent regulations.

   Surveyed COs to determine their knowledge of the criteria.

   Analyzed 143 suspension and debarment action referrals from FYs 2009 through
    2011 and tracked debarments to the GSA EPLS and Postal Service List.

   Benchmarked the Postal Service’s suspension and debarment practices against
    FAR and FAR–exempt agencies to identify best practices and key
    programsimilarities and differences.

We conducted this performance audit from August 2011 through May 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 11, 2012, and included their
comments where appropriate.

We did not rely on computer-generated data for this audit. We reviewed suspension and
debarment case files provided by the OIG’s OGC and assessed the reliability of the
information contained in these files and the Postal Service’s resolution of the cases by
interviewing OGC and Postal Service officials knowledgeable about the cases. We
determined the data were sufficiently reliable for the purposes of this report.




                                           9
Suspension and Debarment Program                                           CA-AR-12-002




Prior Audit Coverage

The OIG identified prior audits or reviews conducted by the GAO and the CIGIE related
to the objective of this audit.

The GAO report titled Suspension and Debarment: Some Agency Programs Need
Greater Attention, and Government-Wide Oversight Could Be Improved (Report
Number GAO-11-739, dated August 31, 2011) concluded that characteristics of an
active suspension and debarment program are: full-time staff dedicated to the
suspension and debarment program, detailed policies and procedures implementing
guidance, and practices that encourage an active referral process.

The CIGIE report titled Don’t Let the Toolbox Rust: Observations on Suspension and
Debarment, Debunking Myths, and Suggested Practices for Offices of Inspector
General, dated September 20, 2011, concluded that suspensions and debarments
might be used more often if the relevant federal communities understood them better –
an understanding that could be fostered through continuing dialogue and training. The
report also outlined suggested suspension and debarment practices for OIGs to
consider.




                                          10
Suspension and Debarment Program                            CA-AR-12-002



                        Appendix B: Management’s Comments




                                       11
Suspension and Debarment Program        CA-AR-12-002




                                   12
